                  Department of Veterans Affairs
                  Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-00670-262



             Healthcare Inspection 


   Follow-Up Review of the Pause in 

        Providing Inpatient Care 

          VA Northern Indiana 

           Healthcare System 

          Fort Wayne, Indiana 





August 28, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                 Executive Summary 

The VA Office of Inspector General Office of Health Care Inspections conducted an
oversight review to follow up on the published report, Healthcare Inspection - Review of
Circumstances Leading to a Pause in Providing Inpatient Care at the VA Northern
Indiana Healthcare System, Fort Wayne, Indiana, Report No. 2013-00670-265 issued
on August 2, 2013. The purpose of the review was to evaluate VHA’s progress in
implementing the action plan outlined in the 2013 report.

In November 2012, Senator Joe Donnelly and Congressman Marlin Stutzman
requested the OIG conduct an inspection about the suspension (pause), initiated in
October 2012, of all inpatient admissions at the VA Northern Indiana Healthcare System
(VANIHCS), Fort Wayne campus (facility). The pause was part of the Veterans
Integrated Service Network (VISN) 11 proactive risk management decisions that were
warranted based on clinical and administrative circumstances that affected the facility at
the time.

At the time of our follow-up review, 16 medical beds with telemetry capability on the
acute medical unit were open; however, the Intensive Care Unit (ICU) remained closed.
As a result, the facility did not accept medically complex patients and offered only
limited surgical procedures. Consequently, many area veterans continue to receive
Non-VA Care.

Although VHA approved the facility’s proposal to reopen the ICU as a Level 4 ICU, an
official date had not been established as of July 2, 2014. We found the facility has
taken actions to actively recruit qualified clinical and leadership staff, but some clinical
staff positions needed to be filled prior to the reopening of the ICU and some leadership
positions remained vacant.

We recommended the VISN Director ensure continued monitoring and implementation
of actions for the reopening of the ICU. We recommended the VISN Director and the
VANIHCS Director ensure recruitment efforts continue for vacant leadership and clinical
staff positions. We recommended the VANIHCS Director ensure that nursing leaders
assess the utilization of the nursing staff to systemically plan assignments during times
when the acute medical unit’s census is low.

Comments
The VISN and Facility Directors concurred with our recommendations and provided an
acceptable action plan. (See Appendixes A and B, pages 12–15 for the Directors’
comments.) We will follow up on the planned actions until they are completed.



                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for
                                                             Healthcare Inspections


VA Office of Inspector General                                                                     i
                     Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                                Purpose 

The VA Office of Inspector General (OIG) Office of Health Care Inspections conducted
an oversight review to follow up on recommendations OIG made in Healthcare
Inspection - Review of Circumstances Leading to a Pause in Providing Inpatient Care at
the VA Northern Indiana Healthcare System Fort Wayne, Indiana, Report
No. 2013-00670-265 issued on August 2, 2013.1 The purpose of the review was to
evaluate VHA’s progress in implementing the action plan outlined in the 2013 report.

                                            Background 

The VA Northern Indiana Healthcare System (VANIHCS) consists of two campuses
located in Fort Wayne and Marion, IN, and is part of the Veterans Integrated Service
Network (VISN) 11.

VANIHCS’ catchment area had 35,775 unique patients in March 2014.2 The Fort
Wayne campus (facility) provides outpatient primary care and inpatient medical
services. Prior to the pause, the facility had 22 operational medical beds with some
telemetry capability and 4 Intensive Care Unit (ICU) operational beds for a total of
26 authorized beds. At the time of our review, the facility had 16 operational medical
beds with telemetry capability on the acute medical unit. The Marion campus provides
outpatient primary care and mental health (MH) services, inpatient chronic and acute
psychiatric care, and community living center services.

In November 2012, Senator Joe Donnelly and Congressman Marlin Stutzman
requested the OIG conduct a review related to the suspension (pause), initiated in
October 2012, of all inpatient admissions at the facility. The pause did not involve the
Marion campus. The pause was part of the VISN’s proactive risk management
decisions based on clinical and administrative circumstances that affected the facility
at the time.

The VISN’s active oversight role in implementing the pause and its continued review of
the facility’s progress has been essential in addressing administrative and clinical
actions to ensure high quality health care delivery. The VISN and the facility
implemented a phased-in process to return the facility back to operational status for
inpatient services. The facility’s leaders also initiated communication efforts to inform
internal and external stakeholders on the facility’s status.

In the 2013 OIG report, we noted that the facility was not at full capacity or at normal
operations and recommended that the Veterans Health Administration (VHA) develop a
policy for guidance when major clinical services are paused at a VA facility. We also
recommended that the VISN Director ensure a review of the facility ICU level of care

1
 http://www.va.gov/oig/pubs/VAOIG-13-00670-265.pdf. 

2
 http://www.va.gov/vetdata/glossary.asp. A veteran patient is counted as a unique patient in each division from

which they receive care.



VA Office of Inspector General                                                                                     1
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


and support services be completed to determine the appropriate designation and that
qualified clinical staff are available to provide care. Finally, we recommended that the
VANIHCS Director ensure that efforts continue to recruit qualified staff for vacant
leadership positions, nurse competencies are consistently completed and validated
annually, and the facility fully implements the nurse staffing methodology.

                            Scope and Methodology 

Our review was limited to operations at the Fort Wayne campus of the VANIHCS.

We conducted an oversight review on January 28–30, 2014. We interviewed the VISN
Director and Chief Medical Officer. We also interviewed VANIHCS leaders, to include
the Director, Associate Directors for the Fort Wayne and Marion campuses, Chief of
Staff (COS), Chief of Surgery, Associate Director for Patient Care Services, Quality
Manager, Resource Manager for Patient Care Services, Chief and Associate Chief of
Human Resources, Public Affairs Officer, Chief of Organizational Improvement, and the
Patient Advocate. We reviewed VHA directives, facility policies and procedures,
administrative documents, nurse competency records, quality management data
documents, patient advocate records, and other relevant documentation.

We conducted the inspection in accordance with Quality Standards for Inspection
and Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




VA Office of Inspector General                                                                    2
                     Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                    Inspection Results 

Issue 1: VHA Policy Guidance

In our 2013 report, we recommended that VHA develop policy for guidance when major
clinical services are paused at a VA facility. In its initial status monitoring report to the
OIG in December 2013, VHA responded:

          VHA Directive 2009-0013 and VHA Handbook 1000.014 are VHA’s current
          policies on reductions or changes in major clinical services at a facility.
          Because these policies can be construed to apply only to permanent
          changes, VHA will reinforce the Directive and Handbook apply to both
          temporary (paused) as well as permanent changes and will clarify how to
          implement them. The Deputy Under Secretary for Health for Operations
          and Management and the Assistant Deputy Under Secretary for Health for
          Clinical Operations will provide policy guidance to key leadership during
          the Network Directors meeting and the Chief Medical Officers/Quality
          Management Officers meeting.

During our follow-up review, we learned that, in September and October 2013, VHA met
with the Chief Medical Officers and Quality Management Officers regarding policy
guidance for changes to temporary and permanent major clinical services and
reinforced to leaders that VHA Directive 2009-001 and VHA Handbook 1000.01 apply to
both temporary and permanent major clinical services changes. We consider this
recommendation closed.

Issue 2: ICU Level of Care

In our 2013 report, we recommended that the VISN Director ensure that a review of the
facility ICU level of care and support services was completed to determine the
appropriate designation.    In its initial status monitoring report to the OIG in
December 2013, VHA responded:

          Based on data analysis and a review of other information, VANIHCS is in
          the process of developing a proposal in accordance with the requirements
          outlined in VHA Directive 2009-001…to reopen the Level 4 ICU. The
          Network Director and VA Central Office will review this proposal.
          VANIHCS implemented an ICU Steering Committee to ensure processes,
          competencies, and staff members are in place to open ICU.

Status of the Facility Action Plan and Operations

As a result of the pause, the facility developed a four-step, phased inpatient unit plan:


3
    VHA Directive 2009-001, Restructuring of VHA Clinical Programs, January 5, 2009.
4
    VHA Handbook 1000.01, Inpatient Bed Change Program and Procedures, December 22, 2010.


VA Office of Inspector General                                                                       3
                                              Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


                  Phase 1: Admissions to the acute medical unit for chemotherapy
                  Phase 2: Admissions to the acute medical unit for general medical and
                           surgical care in six-bed increments 

                  Phase 3: Admissions to acute medical unit for telemetry 

                  Phase 4: Reopen the ICU 


At the time of this review, Phases 1, 2, and 3 were implemented and Phase 4 was
pending. There were 16 operational medical beds with telemetry capability on the acute
medical unit. The progressive reopening of the facility’s operating beds is displayed in
Exhibit 1.

                        Exhibit 1. Operational Bed Numbers - December 2, 2012 through January 31, 20145

                                       16
          Number of Operational Beds




                                       14

                                       12
                                                                                                               12/3/2012
                                       10
                                                                                                               3/27/2013
                                        8
                                                                                                               6/11/2013
                                        6                                                                      7/31/2013
                                        4                                                                      9/30/2013

                                        2                                                                      10/4/2013
                                                                                                               1/31/2014
                                        0
                                              Phase 1:       Phase 2:        Phase 3:        Phase 4:
                                            Chemotherapy     General        Telemetry      Reopening of
                                             Admissions      Medical        Admissions       the ICU
                                                            Admissions
      Source: OIG

During our follow-up review, the facility had 16 operational medical beds with telemetry
capability on the acute medical unit and the ICU was closed. Because the ICU was
closed, admission criteria were strictly defined, and the facility did not accept patients
who might possibly require a higher level of care after admission. We also learned
surgical procedures were limited because of the ICU closure.

We reviewed average daily census (ADC) data and found the acute medical unit had
low ADC and patients who required care beyond the scope of services outlined in the
admission criteria were transferred to the community under Non-VA Care.6




5
    Exhibit formulated from data provided by the facility. 

6
    Non-VA Care is used when VA medical facilities are not “feasibly available.” http://www.nonvacare.va.gov



VA Office of Inspector General                                                                                                4
                    Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


In fiscal year (FY) 2012, the facility’s acute medical unit7 ADC was 15.7. In FY 2013,
the ADC was 2.3 patients.8 From October 1, 2013, through January 31, 2014, the ADC
was 5.3 patients.

From January 1 through January 31 2014, the daily patient transfers under Non-VA
Care ranged from 0 to 14 patients, and the average daily transfer rate was 5 patients.
On January 29, the facility had 0 inpatients. On that day, 2 patients were transferred
under Non-VA Care, and 28 patients were already authorized for and receiving Non-VA
Care.

The facility reported the cost of total Non-VA Care was approximately $25 million in
FY 2012 and $37 million in FY 2013 and was projected to be higher in FY 2014. During
interviews, VISN and facility leaders acknowledged that the cost of providing inpatient
Non-VA Care while simultaneously staffing a unit with low ADCs was high (per facility
report—approximately $4 million in FY 2013) but emphasized the veterans were getting
the care they needed.

We determined that, from October 2013 through March 2014, the facility provided
non-VA care to 1,190 patients while maintaining 16 beds on the acute medical unit. The
number of patients authorized to receive inpatient Non-VA Care from October 2013
through March 2014 is displayed in Exhibit 2.

              Exhibit 2. Inpatient Non-VA Care from October 2013 through March 20149


                       Number of Patients Under Non‐VA 
                                     Care
            250

            200

            150

            100

             50

               0
                    October     November     December      January     February   March
          Source: OIG

We interviewed the facility’s patient advocate to determine if facility patients had
complained about referrals to Non-VA care rather than admission to the facility. The

7
  The facility’s acute medical unit had 22 beds during fiscal year 2012.
8
  The pause impacted the overall FY 2013 ADC for the acute medical unit.
9
  Exhibit formulated from data provided by the facility.


VA Office of Inspector General                                                                      5
                        Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


patient advocate did not receive any inquiries, complaints, compliments, or concerns
related to access of inpatient care at the facility from FY 2013 through March 31, 2014.

Reopening the ICU

VHA has 4 levels of classifications for ICU level of care, which is based on the
complexity of the services provided. Level 1 and 2 ICUs provide complex services, a
Level 3 ICU provides moderate services, and a Level 4 ICU provides basic services.10
Prior to the pause, the facility’s ICU classification was Level 3.

On February 8, 2013, a facility committee was established and tasked to develop a
proposal to reopen the ICU. The ICU proposal plan was initiated on May 20, and on
December 18, the facility finalized a detailed proposal to reopen the ICU as a Level 4
ICU.11 The VISN approved and forwarded the proposal to VA Central Office (VACO)
and, on December 27, VACO approved the proposal. The VA Under Secretary for
Health approved the ICU proposal on March 13, 2014.

Facility leaders told us that they expect the facility will admit an increased number of
patients with more complex medical problems to the acute care medical unit, and
surgeons will be able to perform more procedures after ICU services resume. However,
as of the date of this report, the ICU remained closed with no official date for its
reopening.

Overall, the VISN and the facility have developed and initiated corrective actions to
address the phased-in progression of the admission of patients to the acute medical unit
for chemotherapy, medical, and telemetry services. Staffing remains at full operational
status for the acute medical unit despite the unit’s low ADC. The ICU remains closed,
and patients continue to be transferred under Non-VA Care. Because the ICU level of
care and support services are not fully implemented, this recommendation will remain
open.

Issue 3: Qualified Clinical Staff

In our 2013 report, we recommended that the VISN Director ensure qualified clinical
staff are available to provide care. In its initial status monitoring report to the OIG in
December 2013, VHA responded:

           VANIHCS continues to recruit qualified clinical staff for physician
           recruitment and all physician and Nurse Practitioner (NP) vacancy
           announcements are open-continuous and include the maximum allowable
           recruitment and relocation incentives and an Education Debt Reduction
           Program incentive as well. VANIHCS has created a physician recruiter
           position dedicated to filling physician positions and expanded recruitment
           efforts…

10
  Almenoff, P., Sales, A., Rounds S., et al. Intensive care services in the Veterans Health Administration. Chest 2007, 

132:1455-62.

11
     Planned ICU services and procedures include ventilator support, arterial lines, and cardioversion.



VA Office of Inspector General                                                                                              6
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


During our follow-up review, we determined that VISN and facility leaders made active
recruitment efforts and used a variety of hiring programs and incentives to identify and
employ qualified clinical staff. Facility leaders told us that barriers to hiring qualified
applicants were the length of time it took to hire staff, the credentialing clearance
process, and difficulty attracting qualified candidates. The facility leaders stated that
professional clinical staff recruitment is a continuous process at the facility. We learned
the VISN planned to hire a physician recruiter, and the facility had appointed physician,
nurse, and administrative recruiters within the human resource department.

Nurse recruitment efforts are ongoing, and from October 11, 2012 through
March 19, 2014, the facility hired 19 RNs. The average time between an RN’s
application date to the employment date is 4 months, and orientation training for nursing
staff requires approximately 1 month. Nursing leaders stated that an additional six RN
full-time positions would be needed for the ICU to be fully staffed. Based on the
average times cited above, it would take 5 months for additional facility ICU RNs to be
hired and complete orientation.

We determined corrective actions have been taken to recruit and hire qualified clinical
staff positions.  Because some clinical staff positions remain vacant, this
recommendation remains open.

Issue 4: Recruitment and Appointment of Leadership Positions

In our 2013 report, we recommended that the VANIHCS Director ensure that efforts
continue to recruit qualified staff for vacant leadership positions. In its initial status
monitoring report to the OIG in December 2013, VHA responded:

       VANIHCS hired an ED Lead Physician, who entered on duty on August
       25, 2013. A tentative selection was made for the Chief of MH position and
       the candidate was notified on November 29, 2013. The COS is in the
       process of reviewing applicant information for the Assistant Chief, MH
       position, which is a new position for the leadership team. We continue to
       recruit for a Chief of Geriatrics and Extended Care position. Recruitment
       incentives of up to 25 percent are authorized to maximize recruitment
       efforts as well as making the announcement open-continuous and placed
       on national job boards. Recruitment expansion has included utilization of
       VA and VHA resources, utilization of national trade journals and
       publications, utilization of commercial recruitment web sites, and direct
       contact with eleven medical schools to search for potential candidates.
       VANIHCS selected an internal staff member for the Associate Chief Nurse
       (ACNS) for Operations, and ACNS, Primary Care positions. The previous
       ACNS for MH and Ambulatory Care has been divided into two separate
       positions (ACNS, MH and ACNS, Primary Care) to allow increased
       nursing leadership in each area. The vacant Chief Nurse, MH position
       was posted December 9, 2013 and includes the maximum allowable use
       of relocation and recruitment incentives. VANIHCS hired a General Scale-
       15 Associate Director, who entered on duty October 20, 2013.


VA Office of Inspector General                                                                    7
                        Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


During our follow-up review, we determined that several administrative and clinical
leadership positions were appointed; however, some of the facility’s leadership and
management positions continue to be vacant. The exhibit below notes the status of
VANIHCS positions as of March 28, 2014:
                                                                            12
                                    Exhibit 3. Status of VANIHCS Positions

                  Vacancy                                     Offer Date                 Start Date
Chief of Extended Care and                       Open and Continuous posting      Open
Rehabilitation Service
                                                 Open and Continuous posting      Open
Chief of Primary Care

Chief of MH                                      November 29, 2013                March 9, 2014
Assistant Chief for MH                           Open                             Open
                                                 Tentative offer given to
ED Director (An in-house hospitalist
                                                 selected applicant on February   Anticipated June 2014
was detailed into the ED physician
                                                 26, 2014.
position effective March 18, 2013)
Source: OIG

The facility has expanded recruitment efforts and incentive bonuses to attract qualified
candidates for leadership positions; however, the Chief of Extended Care and
Rehabilitation and the Assistant Chief of MH Services positions have been open since
May 1, 2013.          The Chief of Primary Care position was originally filled on
March 24, 2013; however, it was again vacant due to the employee’s departure from the
facility. The facility’s effort to increase nursing leadership resulted in appointments to
ACNS positions although the ACNS position for MH is currently vacant.

The facility’s executive staff believed the stabilization of leadership positions is vital to
improving conditions at the facility and acknowledged that recruitment of staff is a
continuous process. We determined that corrective actions were taken to recruit and
hire qualified staff for leadership positions. Because some leadership positions remain
vacant, this recommendation remains open.

Issue 5: Nurse Competencies

In our 2013 report, we recommended that the VANIHCS Director ensure that nurse
competencies are consistently completed and validated annually. In its initial status
monitoring report to the OIG in December 2013, VHA responded:

           VANIHCS Nursing Service Policy (NS)-2, RN Competency Program has
           been published (September 2013). The Associate Director for Patient
           Care Services (ADPCS) completed a 100 percent review of all nurse staff
           competencies and certified compliance for all RNs, Licensed Practical
           Nurses, and Nurse Assistants assigned to direct patient care in

12
     Exhibit formulated from data provided by the facility.


VA Office of Inspector General                                                                            8
                      Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


           accordance with the unit specific competencies identified for each area of
           practice as per policy NS-2.         A random sample of nursing staff
           competencies        was    submitted   to  the    Director    for   further
           certification/validation. A memorandum certifying 100 percent validation of
           nursing competencies was submitted to Veteran Affairs Central Office on
           November 4, 2013.

During our follow-up review, we determined that in November 2013, the Associate
Director for Patient Care Services completed a 100 percent validation of all nurse staff
competencies.

In January 2014, we reviewed 12 nurse competency folders which included RNs,
Licensed Practical Nurses, and nurse assistants. We evaluated nurse competency
documentation to determine whether key elements on annual assessments included
dates, methods used to determine competency, and employee’s plus supervisor’s
signatures. We found that all 12 folders generally met requirements.

Corrective actions were taken and the facility generally met requirements. We consider
this recommendation closed.

Issue 6: Nurse Staffing Methodology

In our 2013 report, we recommended that the VANIHCS Director ensure that the facility
fully implements the nurse staffing methodology and complete all required steps. In its
initial status monitoring report to the OIG in December 2013, VHA responded:

           VANIHCS has implemented all requirements of the nurse staffing
           methodology and ensured the numbers, types, and assignments of
           nursing personnel are consistent with VHA directive and facility strategic
           plans. VANIHCS Nursing Service Policy NS-49, Staffing Methodology for
           Nursing Personnel, has been published (August 2013). A Facility Expert
           Panel completed all required Staffing Methodology Training.

During our follow-up review, we determined that the facility had fully implemented the
nurse staffing methodology and generally met requirements consistent with the relevant
VHA Directive.13 Because the facility fully implemented the nurse staffing methodology
and generally met requirements, we consider the original recommendation closed.

We evaluated the facility’s nurse staffing levels for the acute medical unit and found that
recommended nurse staffing levels were consistently above the targeted levels, and the
facility did not have a formal plan and tracking system to fully utilize staff when the unit’s
census is low.

Facility leaders reported that nurse staffing levels are maintained for the acute medical
unit at an operational standard of an ADC of 16 patients, regardless of the actual
workload. As a result of the low ADC on the acute medical unit, the unit nursing staff

13
     VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.


VA Office of Inspector General                                                                        9
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


have been detailed to the Non-VA Care program or the Oncology clinic. Additionally,
the unit nursing staff have assisted in updating local policies and procedures, and
participated in educational opportunities such as completion of competencies, mock
drills, and simulations. Facility leaders emphasized that these nurse activities will
ensure preparation of qualified, skilled staff when the facility is at full operational
capacity.

We recommended that nursing leaders assess the utilization of the nursing staff to
systemically plan assignments during times when the acute medical unit’s census is
low.

                                      Conclusions 

We determined that the VISN and facility leaders have exercised appropriate oversight
and implemented corrective actions to their infrastructure to resolve some of the
conditions identified in the 2013 OIG report.

VHA reinforced to leaders that previously published clinical program and bed change
policies and directives apply to both temporary and permanent major clinical services
changes. The original Recommendation 1 is closed.

As the ICU remains closed, the type of patients admitted to the acute medical unit is
limited and patients are transferred to the community under Non-VA Care. The lack of
an ICU also hampers the facility’s ability to perform some surgical procedures. The
facility completed a proposal that included the analysis and evaluation of required
equipment, procedures and services, and staffing prior to the reopening of an ICU.
VACO approved the proposal and action items are ongoing. An official date of
reopening the facility’s ICU had not been established as of July 2, 2014.

The facility has taken actions to actively recruit leadership positions and qualified clinical
staff. However, some leadership positions remain vacant and clinical staff positions will
need to be appointed prior to the reopening of the ICU. The original Recommendations
2, 3, and 4 will remain open for continued monitoring of actions to ensure the level of
care, clinical staff, and leadership positions are adequately identified and resolved.

We found that nurse competencies are now consistently completed and validated and
consider the original Recommendation 5 closed. Because the facility fully implemented
the nurse staffing methodology and generally met requirements, we consider the
original Recommendation 6 closed. However, we made a new recommendation that
nursing leaders assess the utilization of the nursing staff to systemically plan
assignments during times when the acute medical unit’s census is low.




VA Office of Inspector General                                                                   10
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                                 Recommendations 

Three original recommendations remain open, and a new nurse staffing
recommendation has been added. We will follow up on VISN 11 and VANIHCS
planned corrective actions until completed.

1. We recommended that the Veterans Integrated Service Network Director ensure
continued monitoring and implementation of actions for the reopening of the Intensive
Care Unit.

2. We recommended that the Veterans Integrated Service Network Director ensure that
efforts continue to recruit qualified clinical staff to provide care.

3. We recommended that the VA Northern Indiana Healthcare System Director ensure
that efforts continue to recruit qualified staff for vacant leadership positions.

4. We recommended that the VA Northern Indiana Healthcare System Director ensure
that nursing leaders assess the utilization of the nursing staff to systemically plan
assignments during times when the acute medical unit’s census is low.




VA Office of Inspector General                                                                   11
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                    Memorandum


     Date: July 2, 2014

    From: Director, Veterans In Partnership Network (10N11)

 Subject: 	Draft Report—Healthcare Inspection-Follow-Up Review of the
           Pause in Providing Inpatient Care, VA Northern Indiana
           Healthcare System, Fort Wayne, IN

       To: Director, Region Office of Healthcare Inspections (54KC)
             Director, Management Review Service (VHA 10AR MRS OIG Hotline)


   1. I concur with the findings and recommendations in the report.

   2. If you have any questions regarding the responses and actions to the
      recommendations in the report, please contact me.




                                         For




VA Office of Inspector General                                                                   12
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix B
                         System Director Comments


               Department of
               Veterans Affairs	                                   Memorandum


     Date: July 2, 2014

     From: 	Director, VA Northern Indiana Health Care System, Fort Wayne, IN
            (610A4/00)

 Subject: 	Draft Report—Healthcare Inspection-Follow-Up Review of the
           Pause in Providing Inpatient Care, VA Northern Indiana
           Healthcare System, Fort Wayne, IN

       To: Director, Veterans In Partnership Network (10N11)


       I concur with the VA Northern Indiana Healthcare System’s response and
       action plans as detailed within this report.

       Thank you,




   Denise M. Deitzen, Director




VA Office of Inspector General                                                                   13
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Veterans Integrated Service Network
Director ensure continued monitoring and implementation of actions for the reopening of
the Intensive Care Unit.

Concur

Target date for completion: October 28, 2014

Facility response: A copy of the Proposal to re-open Intensive Care Unit, which was
approved by the Under Secretary for Health on March 13, 2014, was submitted to the
OIG on March 28, 2014. VA Northern Indiana Healthcare System’s internal work group
target to reopen Intensive Care Unit is Fall, 2014. VA Northern Indiana Healthcare
System is in the process of finalizing policies, procedures, and competencies prior to
opening.

Recommendation 2. We recommended that the Veterans Integrated Service Network
Director ensure that efforts continue to recruit qualified clinical staff to provide care.

Concur

Target date for completion: October 28, 2014

Facility response: VA Northern Indiana Healthcare System continues to actively recruit
qualified staff for clinical staff to provide care. Below is a status update of provider
recruitment/hiring information for the timeframe of April 30, 2013 thru June 18, 2014.

     Associate Chief of Staff for Primary Care. 

     Two Hospitalists have scheduled Enter on Duty dates. 

     One full-time Emergency Room Physician position was filled. 

     We have added a new position of Deputy, Chief of Staff to the organizational 

      structure and are actively recruiting for this position.
    One Physician who previously worked Nights part-time is now a full-time Night
      Shift Physician.
    A tentative offer has been extended to a provider who was interviewed for the
      Intensive Care Unit Physician Director vacancy.
   	 VA Northern Indiana Healthcare System advertises on USAJobs, New England
      Journal of Medicine, The Journal of the American Medical Association, Medical
      Job Network, and several other Healthcare web sites; in addition to, advertising
      on 55 general recruitment web sites.



VA Office of Inspector General                                                                   14
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN


Recommendation 3. We recommended that the VA Northern Indiana Healthcare
System Director ensure that efforts continue to recruit qualified staff for vacant
leadership positions.

Concur

Target date for completion: October 28, 2014

Facility response: VA Northern Indiana Healthcare System continues to actively recruit
qualified staff for vacant leadership positions. Below is a status update of provider
recruitment/hiring information for the timeframe of April 30, 2013 thru June 18, 2014.

      Associate Chief of Staff for Primary Care.
      We have added a new position of Deputy, Chief of Staff to the organizational
       structure and are actively recruiting for this position.
     A tentative offer has been extended to a provider who was interviewed for the
       Intensive Care Unit Physician Director vacancy.
    	 VA Northern Indiana Healthcare System advertises on USAJobs, New England
       Journal of Medicine, The Journal of the American Medical Association, Medical
       Job Network, and several other Healthcare web sites; in addition to, advertising
       on 55 general recruitment web sites.

Recommendation 4. We recommended that the VA Northern Indiana Healthcare
System Director ensure that nursing leaders assess the utilization of the nursing staff to
systemically plan assignments during times when the acute medical unit’s census is
low.

Concur

Target date for completion: August 20, 2014

Facility response: VA Northern Indiana Healthcare System will develop a process to
redeploy nursing staff at a minimum of 14 day interval assignments to better match
census demands and organizational efficiencies while addressing staff satisfaction.




VA Office of Inspector General                                                                   15
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Cindy Niemack-Brown, CMSW, LMHP, Team Leader
                         Stephanie Hensel, RN, JD
                         Thomas Jamieson, MD
                         James Seitz, RN, MBA




VA Office of Inspector General                                                                   16
                  Follow-Up Review of the Pause in Providing Inpatient Care, VANIHCS, Fort Wayne, IN
                                                                                        Appendix D

                                  Report Distribution
VA Distribution
Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 11, Veterans in Partnership (10N11)
Director, VANIHCS (610A4/00)

Non-VA Distribution
House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
    Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
    Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Daniel Coats, Joe Donnelly, Rob Portman
U.S. House of Representatives: Susan W. Brooks, Robert Latta, Luke Messer,
    Todd Rokita, Marlin Stutzman, Pete Visclosky, Jackie Walorski

This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                   17
